April 27, 2021
Clerk
Supreme Court of the United States
One First Street, N. E.
Washington, DC 20543

Re: — James Tolle v. Ralph Northam, et al.

Dear Clerk:

The enclosed renewed emergency application is submitted under Supreme Court Rule
22.4 following denial of the in re emergency application by the Chief Justice. The
accompanying Emergency Application for Stay or Injunction is directed towards Associate
Justice Neil Gorsuch. One copy is filed as a document filed in a case prior to a ruling on a
petition for a writ of certiorari according to the modified procedures under your “GUIDANCE
CONCERNING CLERK’S OFFICE OPERATIONS” dated November 13, 2020. Service of
other parties has been completed according to the swom statement of service enclosed with the
Application. I respectfully request that you expedite the enclosed Emergency Application as
much as possible due to the urgency of the relief sought in this application.

Time is of the essence and I have experienced unnecessary delays in correspondence with
your office. If you have any issue or question concerning this matter which may delay the
submission of the enclosed Emergency Application to the Justice designated, please contact me
as soon as possible at 703-232-9970 so that I can resolve the matter before your office returns
this Application.

Sincerely,

an

Pro Se

11171 Soldiers Court
Manassas, VA 20109
703-232-9970
jtmail0000@yahoo.com

Attachment:
Emergency Application for Stay or Injunction submitted to Associate Justice Neil Gorsuch

  

APR 29 2021

@FFICE OF THE CI
SUPREME COURT HES

   
